No. 19-1111
IN THE

Supreme Court of the United States
>>>>

MICHAEL A. DEEM,
Petitioner,
v.

LORNA DIMELLA-DEEM, ROBERT J. FILEWICH, PHD,
ANGELINA YOUNG, ROLLIN AURELIEN,
ROBIN D. CARTON, ESQ., FAITH G. MILLER, ESQ.,
ANGELA DIMELLA, ARLENE GORDON-OLIVER, F.C.J.,
Respondents.
Petition for a Writ of Certiorari to the
United States Court of Appeals for the Second Circuit

OPPOSITION TO PETITION FOR
A WRIT OF CERTIORARI

April 8, 2020

Robert A. Berns
Counsel of Record
KAUFMAN DOLOWICH
& VOLUCK, LLP
Attorneys for Respondent
Faith G. Miller, Esq.
25 Main Street,
Suite 500
Hackensack, New Jersey 07601
201-488-6655
rberns@kdvlaw.com

i
COUNTER-STATEMENT OF
QUESTIONS PRESENTED
1. Whether the Second Circuit Court of Appeals
correctly affirmed the dismissal of Petitioner’s
claims pursuant to the Domestic Relations
Abstention Doctrine articulated in American
Airlines, Inc. v. Block?
2. Whether the Domestic Relations Abstention
Doctrine is consistent with this Court’s precedent, including Ankenbrandt v. Richards?

ii
STATUTORY PROVISIONS INVOLVED
28 U.S.C. § 1331 provides: “The district courts
shall have original jurisdiction of all civil actions
arising under the Constitution, laws, or treaties of
the United States.”

iii
TABLE OF CONTENTS
Page

COUNTER-STATEMENT OF
QUESTIONS PRESENTED .....................

i

STATUTORY PROVISIONS INVOLVED .....

ii

TABLE OF AUTHORITIES ..........................

v

PRELIMINARY STATEMENT .....................

1

STATEMENT OF THE CASE.......................

2

A. Factual Allegations in the
First Amended Complaint .................

2

B. Procedural History in the
District Court ....................................

3

C. Procedural History in the
Second Circuit ...................................

5

SUMMARY OF ARGUMENT........................

7

ARGUMENT .................................................

8

THE SECOND CIRCUIT CORRECTLY
APPLIED THE DOMESTIC
RELATIONS ABSTENTION
DOCTRINE ........................................

8

A. Abstention Was Warranted ........

8

iv
Page

B. The Domestic Relations Abstention
Doctrine Does Not Conflict with
Ankenbrandt ...............................
CONCLUSION ..............................................

10
16

v
TABLE OF AUTHORITIES
Page(s)

Cases
American Airlines, Inc. v. Block,
905 F.2d 12 (2d Cir. 1990) .......................passim
Ankenbrandt v. Richards,
504 U.S. 689 (1992)..................................passim
Bossom v. Bossom,
551 F.2d 474 (2d Cir. 1976) .....................

9

Burford v. Sun Oil Co.,
319 U.S. 315 (1943) .................................. 12, 13
Deem v. DiMella-Deem,
941 F.3d 618 (2d Cir. Oct. 30, 2019)........passim
Keane v. Keane,
549 Fed. Appx. 54 (2d Cir. 2014) .............

9

Marshall v. Marshall,
547 U.S. 293 (2007) ..................................

14

Martinez v. Queens County DA,
596 Fed. Appx. 10 (2d Cir. 2015) .............

9

Younger v. Harris,
401 U.S. 37 (1971)....................................

13

Statutes
28 U.S.C. § 1331 ............................................

ii

28 U.S.C. § 1334 ............................................

14

42 U.S.C. § 1985 ............................................

4

PRELIMINARY STATEMENT
This brief is submitted on behalf of Respondent
FAITH G. MILLER, ESQ. (“Ms. Miller”), in opposition
to Petitioner Michael Deem’s (“Petitioner”) petition
for a writ of certiorari to the United States
Supreme Court. Petitioner is requesting that this
Court grant review of the United States Court of
Appeals for the Second Circuit’s Judgment dated
October 30, 2019, which affirmed the United States
District Court’s dismissal of Petitioner’s claims in
this action. Petitioner, an admitted attorney, filed
a federal lawsuit seeking review of actions undertaken in an underlying state court child custody
proceeding. Despite Petitioner’s protests to the contrary, the District Court properly dismissed Petitioner’s claims, as against all respondents,
pursuant to the Domestic Relations Abstention
Doctrine.
In a well-reasoned decision, the Second Circuit
affirmed the District Court’s dismissal, holding
that the District Court properly invoked the
Domestic Relations Abstention Doctrine. In so
holding, the Second Circuit rejected Petitioner’s
argument that the Domestic Relations Abstention
Doctrine articulated in American Airlines v. Block
could never be applied as long as a plaintiff purports to raise a federal question in their case. The
Second Circuit further rejected Petitioner’s argument that the invocation of the Domestic Relations
Abstention Doctrine violated this Court’s ruling in
Ankenbrandt v. Richards, a case which involved
the separate and distinct Domestic Relations

2
Exception Doctrine. The Second Circuit noted that
while the Domestic Relations Exception did not
apply in this case, because Petitioner’s case was
not based solely upon diversity jurisdiction, the
Domestic Relations Abstention Doctrine nevertheless was properly utilized by the District Court.
Petitioner now seeks this Court’s review following the Second Circuit’s denial of Petitioner’s
request for a rehearing en banc. For these reasons
and for the reasons discussed below, the Petition
for a Writ of Certiorari should be denied.
STATEMENT OF THE CASE
A. Factual Allegations in the First Amended
Complaint
On November 7, 2017, Petitioner commenced an
action for divorce in New York State Supreme
Court, Westchester County, on November 7, 2017.
Petitioner’s wife, Respondent Lorna DiMella-Deem
(“Mrs. Deem”), filed an Answer in the divorce
action seeking, inter alia, sole custody of their two
children and apparently accused Petitioner of suffering from mental illness.
On March 16, 2018, Mrs. Deem obtained a temporary order of protection against Petitioner in
Westchester County Family Court on the grounds
that Petitioner had been diagnosed with Paranoid
Personality Disorder (PPD). Subsequently, on April
13, 2018, Petitioner alleges that an anonymous
complaint of suspected child neglect was filed with

3
the New York State Central Registry asserting
that Petitioner was engaged in erratic behavior
and exhibiting signs of PPD. Petitioner contends
that this report was false and was made at the
behest of Mrs. Deem. As a result of this report, the
Westchester County Department of Social Services
began an investigation and the Westchester County Family Court issued a temporary order of protection that limited Petitioner’s contact with his two
children.
On May 15, 2018, the New York state court judge
presiding over the Family Court proceeding, Hon.
Arlene Gordon-Oliver, appointed Ms. Miller as Law
Guardian/Attorney for the Children (AFC).1 Petitioner alleges that in her role as AFC, Ms. Miller
filed an emergency application with the Family
Court to suspend all contact between Petitioner
and the children. Judge Gordon-Oliver granted Ms.
Miller’s application. Petitioner claims that Ms.
Miller’s application did not accurately represent
the wishes of the children. (Petition, at p. 8).
B. Procedural History in the District Court
Displeased with the outcome of his state court
proceedings, Petitioner commenced the instant
action in the District Court with the filing of a
1

Petitioner’s assertions that Ms. Miller, and her law
firm, Miller, Zeiderman, Wiederkehr & Schwartz LLP, were
“politically connected” have no relevance to the issues raised
by this Petition and appear to be nothing more than an
attempt to disparage Ms. Miller. They should not be considered by the Court. (Petition, at pp. 6 n.1; 7, n.2, 33).

4
Complaint on or about July 9, 2018. Petitioner filed
a First Amended Complaint (FAC) on or about July
20, 2018. Petitioner’s FAC alleged the following
causes of action as against Ms. Miller: (1) violation
of Petitioner’s First Amendment right to intimate
association with his children; (2) malicious prosecution and abuse of process in violation of the
Fourth Amendment; (3) violation of Petitioner’s
Fourteenth Amendment right to parental relations
and custody of his children; (4) violation of the
Equal Protection Clause of the Fourteenth Amendment; and (5) conspiracy to violate Petitioner’s
Constitutional rights pursuant to 42 U.S.C. § 1985.
In addition to damages, Petitioner’s FAC sought
injunctive and declaratory relief against all
Respondents.
On July 24, 2018, the District Court declined to
exercise subject matter jurisdiction over Petitioner’s claims in the FAC as against Ms. Miller and all
of the other respondents, determining that abstention was warranted pursuant to the domestic relations abstention doctrine articulated in American
Airlines, Inc. v. Block, 905 F.2d 12, 14 (2d Cir.
1990). The District Court held that under this doctrine it would abstain from exercising jurisdiction
over Petitioner’s claims because Petitioner’s claims
“are, or [were] on the verge of being, about child
custody,” and Petitioner had “alleged no facts indicating that there [was] any ‘obstacle to [a] full and
fair determination [of his child custody issues] in
state courts.’ ” Deem v. DiMella-Deem, 941 F.3d
618, 620 (2d Cir. Oct. 30, 2019).

5
On July 25, 2018, the District Court issued a
Judgment dismissing this action pursuant to the
July 24, 2018 Order.
C. Procedural History in the Second Circuit
Petitioner filed a notice of appeal from the District Court’s Judgment on July 31, 2018. After full
briefing on the merits and oral argument, the
Second Circuit issued an opinion on October 30,
2019, affirming the District Court’s dismissal of
this action.
The Second Circuit reviewed the question of
whether the District Court properly elected to
abstain from exercising subject matter jurisdiction
under American Airlines. In its well-reasoned opinion, the Second Circuit first considered whether the
Domestic Relations Exception applied and, second,
if not, whether abstention was warranted in this
case. On the first question, the Second Circuit held
that the Domestic Relations Exception did not
apply because Petitioner had invoked federal question jurisdiction, not diversity. On the question of
abstention, the Second Circuit agreed with the District Court that Petitioner’s claims were, at a minimum “on the verge of being matrimonial in
nature” and that “there [was]no obstacle to their
full and fair determination in state courts.” Id. at
623.
The Second Circuit then conducted a thorough
analysis as to whether the Domestic Relations
Abstention Doctrine set forth in American Airlines,

6
Inc. v. Block, 905 F.2d 12 (2d Cir. 1990) remained
good law in light of the Supreme Court’s subsequent decision in Ankenbrandt v. Richards, 504
U.S. 689 (1992). On this point, the Second Circuit
stated:
Ankenbrandt, the intervening Supreme
Court decision most relevant to American
Airlines’s abstention holding, neither overruled that holding nor cast doubt on it to the
extent that we are free to chart a new course
here. As we have explained, Ankenbrandt
was not a federal-question case and thus did
not squarely address the issue presented in
American Airlines or this case.
* * *
[T]he existence of a distinct abstention doctrine for certain domestic relations disputes
is supported by the Supreme Court’s longstanding recognition—in a non-diversity case
involving a child custody dispute—that “[t]he
whole subject of the domestic relations of
husband and wife, parent and child, belongs
to the laws of the states, and not to the laws
of the United States.”
* * *
Therefore, in the absence of a clear statement from the Supreme Court precluding an
abstention doctrine like the one in American
Airlines, we discern no conflict, incompatibility, or inconsistency between that case and
intervening Supreme Court law that would

7
render prior Circuit precedent not binding on
us.
Id. at 623-24 (internal citations omitted). Moreover, the Second Circuit noted that the circuit
courts that have addressed the issue—the First,
Sixth and Seventh Circuits—all recognize a distinct domestic relations abstention doctrine postAnkenbrandt. Id. at 624. The Clerk of the Second
Circuit Court of Appeals entered judgment affirming the District Court’s dismissal on October 30,
2019.
Petitioner filed a petition for rehearing en banc
before the Second Circuit on November 8, 2019.
Following the denial of his petition on December
11, 2019, Petitioner filed his Petition for a Writ of
Certiorari with this Court on March 6, 2020. This
matter was placed on the Court’s docket on March
10, 2020. Accordingly, the instant brief in opposition is timely.
SUMMARY OF ARGUMENT
Ms. Miller respectfully submits that the Second
Circuit correctly affirmed the District Court’s dismissal of Petitioner’s federal claims pursuant to
the Domestic Relations Abstention Doctrine articulated by the Second Circuit in American Airlines,
Inc. v. Block, 905 F.2d 12, 14 (2d Cir. 1990). First,
the Domestic Relations Abstention Doctrine was
correctly applied to the facts of this case, as Petitioner’s claims against Ms. Miller (and the other
respondents) were clearly matrimonial in nature or

8
“on the verge” of being matrimonial in nature.
Likewise, Petitioner provided no reason as to why
his claims could not be fully and fairly litigated in
the underlying state court proceedings.
Second, the Second Circuit’s October 30, 2019
opinion is consistent, and not in conflict with, the
prior precedent of this Court. Ankenbrandt was not
a federal question jurisdiction claim and, thus, did
not squarely address the issue presented in this
case nor the Second Circuit’s long-standing precedent set forth in American Airlines. As the Second
Circuit correctly noted, Ankenbrandt neither overruled nor cast doubt on the Domestic Relations
Abstention Doctrine and, thus, American Airlines
remains good law. Accordingly, there is no reason
for this Court to grant the Petition and review the
Second Circuit’s opinion as it does not conflict with
this Court’s precedent, nor does it raise any other
significant issues requiring this Court’s review.
ARGUMENT
THE SECOND CIRCUIT CORRECTLY
APPLIED THE DOMESTIC RELATIONS
ABSTENTION DOCTRINE
A. Abstention Was Warranted
The Second Circuit correctly affirmed the District Court’s decision to abstain from exercising
jurisdiction over Petitioner’s FAC and the federal
causes of action under the Domestic Relations
Abstention Doctrine. Under the Domestic Relations

9
Abstention Doctrine, “[a] federal court presented
with matrimonial issues or issues ‘on the verge’ of
being matrimonial in nature should abstain from
exercising jurisdiction so long as there is no obstacle to their full and fair determination in state
courts.” American Airlines, Inc. v. Block, 905 F.2d
12, 14 (2d Cir. 1990) (quoting Bossom v. Bossom,
551 F.2d 474, 475 (2d Cir. 1976) (per curiam)); see
also Martinez v. Queens County DA, 596 Fed. Appx.
10 (2d Cir. 2015) (summary order); Keane v. Keane,
549 Fed. Appx. 54 (2d Cir. 2014) (summary order).
In addition to matrimonial issues, the Domestic
Relations Abstention Doctrine also applies to
actions “challenging the results of domestic relations proceedings.” Martinez, supra, at *12 (affirming dismissal of § 1983 civil rights action brought
against Family Court judge).
At bar, it is clear that Petitioner’s claims against
Ms. Miller arise entirely out of an underlying Family Court proceeding (and actions undertaken by
Ms. Miller in her role as the AFC therein) and that
this action seeks to “challenge the results” of that
proceeding. Among other things, Petitioner contends that Ms. Miller supposedly misrepresented
the children’s wishes to see and communicate with
Petitioner. (Petition, p. 8). Indeed, when Petitioner
was questioned at oral argument before the Second
Circuit as to why the Second Circuit should not
abstain under the Domestic Relations Abstention
Doctrine, he could not provide a viable explanation
as to how his purported federal claims were not
simply re-cast state family law claims attempting

10
to invoke federal court jurisdiction and get another
proverbial “bite at the apple.”
While Petitioner makes conclusory assertions
that he cannot obtain a “full and fair determination” of his child custody claims in state court, he
provides nothing to support his argument. Rather,
Petitioner merely copies sections of his FAC with
conspiracy theories and contentions of purported
courthouse corruption and improper appointment
of judges. (Petition, at pp. 11-14). It was Petitioner’s obligation to demonstrate why the Domestic
Relations Abstention Doctrine should not apply,
and he failed to do so. The allegations in the FAC
are plead in conclusory fashion and demonstrate
nothing other than the fact that Petitioner is
unhappy with the results of the state court proceedings. (Petition, at pp. 11-14).
Accordingly, it is clear that the instant action
seeks to challenge the results of the Family Court
proceeding, and that Petitioner had a full and fair
opportunity to raise his child custody claims in that
proceeding, and therefore abstention was appropriate.
B. The Domestic Relations Abstention Doctrine Does Not Conflict with Ankenbrandt
As the Second Circuit noted in its October 30,
2019 opinion, American Airlines involved a federal
question case arising from the parties’ dispute over
the distribution of alimony payments. 905 F.2d at
15. In American Airlines, before reaching the ques-

11
tion of abstention, the Court first concluded that
the case did not fall within the exception to subject
matter jurisdiction recognized by this Court in earlier precedent, and noted, without deciding, that
the exception may not apply in federal question
cases. Id. at 14 n.1. The Second Circuit then considered, notwithstanding the fact that federal courts
had subject matter jurisdiction over the case,
whether it was appropriate to abstain from exercising such jurisdiction. Specifically, the Second Circuit stated:
Nevertheless, even if subject matter jurisdiction lies over a particular matrimonial
action, federal courts may properly abstain
from adjudicating such actions in view of the
greater interest and expertise of state courts
in this field. A federal court presented with
matrimonial issues or issues “on the verge”
of being matrimonial in nature should
abstain from exercising jurisdiction so long
as there is no obstacle to full and fair determination in state courts.
Id. at 14.
The Second Circuit concluded that abstention
was appropriate because the dispute over alimony
was on the verge of being matrimonial in nature,
and there was no obstacle to a full and fair determination of the dispute in state court. Id. at 14-15.
By contrast, this Court’s subsequent decision in
Ankenbrandt involved application of the Domestic
Relations Exception Doctrine in the context of

12
diversity jurisdiction cases, not abstention in the
context of federal question. 504 U.S. at 699-704. In
Ankenbrandt, this Court held that the Domestic
Relations Exception Doctrine was an implied
exception to Congress’s grant of diversity jurisdiction. Id. at 699, 700-03. As noted in the opinion
below by the Second Circuit, Ankenbrandt did not
involve claims brought pursuant to the federal
courts’ federal question jurisdiction; rather, it was
a diversity case. Id. at 691. As this Court noted,
“[t]hat Article III, § 2, does not mandate the exclusion of domestic relations cases from federal-court
jurisdiction, however, does not mean that such
courts necessarily must retain and exercise jurisdiction over such cases.” Ankenbrandt, 504 U.S. at
697.
Nevertheless, this Court in Ankenbrandt recognized that even if a federal court has jurisdiction
over a case, and thus the exception doctrine does
not apply, abstention from exercising such jurisdiction may be appropriate in certain circumstances.
Id. at 705. Specifically, this Court stated in Ankenbrandt:
It is not inconceivable, however, that in certain circumstances, the abstention principles
developed in Burford v. Sun Oil Co., might
be relevant in a case involving elements of
the domestic relationship even when the parties do not seek divorce, alimony or child custody.
Id. at 705. Nothing in Ankenbrandt could be read to
suggest that federal courts cannot properly exer-

13
cise their discretion to abstain from federal question cases involving domestic relations issues. With
respect to abstention, the Supreme Court concluded that abstention under Younger v. Harris, 401
U.S. 37 (1971) was not appropriate because “there
were no pending state court proceedings” nor under
Burford v. Sun Oil Co., 319 U.S. 315 (1943),
because the “status of the domestic relationship
ha[d] been determined as a matter of state law, and
in any event ha[d] no bearing on the underlying
torts alleged.” Id. at 705-06. In fact, as noted by
Justice Blackmun in his concurring opinion in
Ankenbrandt, “[i]n my view, the longstanding,
unbroken practice of the federal courts in refusing
to hear domestic relations cases is precedent at
most for continued discretionary abstention rather
than mandatory limits on federal jurisdiction.” Id.
at 707.
In accordance with that line of reasoning, the
Second Circuit explicitly noted in this case that
“the existence of a distinct abstention doctrine for
certain domestic relations disputes is supported by
the Supreme Court’s longstanding recognition—
in a non-diversity case involving a child custody
dispute—that “[t]he whole subject of the domestic
relations of husband and wife, parent and child,
belongs to the laws of the states, and not to the
laws of the United States.” Id. at 624.
Moreover, Ankenbrandt was not a federal-question case and thus did not address the issue presented in American Airlines or the case at bar. As
the Second Court held, “in the absence of a clear

14
statement from the Supreme Court precluding an
abstention doctrine like the one in American
Airlines, we discern no conflict, incompatibility, or
inconsistency between that case and intervening
Supreme Court law that would render prior Circuit
precedent not binding on us.” Id. at 623-24 (internal citations omitted).
Finally, the Second Circuit’s affirmance was in
accord with other circuit courts that have
addressed the issue. Id. at 624.
Petitioner improperly conflates the exception and
abstention doctrines in an attempt to argue that
the Second Circuit’s opinion violated Ankenbrandt,
stating that the abstention and exception doctrines
are a “distinction without a difference.” (Petition,
p. 15). Petitioner’s reliance on Marshall v. Marshall,
547 U.S. 293 (2007) is without merit. As in Ankenbrandt, Marshall involved the domestic relations
exception doctrine, not abstention. Id. at 305-08.
Moreover, Marshall was not a federal question
case, unlike here. Rather, jurisdiction in Marshall
was premised on 28 U.S.C. § 1334, which provides
federal district courts in bankruptcy cases. Nothing
in Marshall addresses the abstention doctrine at
issue in this case or casts doubt on American Airlines as good law.
Petitioner next contends that the Second Circuit’s
“refusal” to exercise jurisdiction over his federal
claims “raises grave questions regarding plaintiff’s
rights to petition, equal protection, access to
courts, and due process.” (Petition, p. 16). Indeed,

15
in an attempt to bring his claims outside the
Domestic Relations Abstention doctrine, Petitioner
improperly raises several new arguments for the
first time in his Petition regarding New York State
family court procedures, asserting that he was
improperly denied discovery in the state court
action, and was denied hearings after his parental
rights were terminated. (Petition, pp. 19, 21). Yet
as the Domestic Relations Abstention Doctrine recognizes, the proper forum to raise such questions,
to the extent they have any merit, lies in state
court, not in a separate federal court proceeding.
Accordingly, for all the reasons stated above, the
Second Circuit correctly affirmed the District
Court’s dismissal of the FAC and all federal causes
of action asserted therein as against Ms. Miller
pursuant to the Domestic Relations Abstention
Doctrine.

16
CONCLUSION
WHEREFORE, Respondent FAITH G. MILLER, ESQ.,
respectfully requests that this Court deny Petitioner’s Petition for a Writ of Certiorari.
Dated: Hackensack, New Jersey
April 8, 2020
_____________________________
Robert A. Berns
Counsel of Record
KAUFMAN DOLOWICH
& VOLUCK, LLP
Attorneys for Respondent
Faith G. Miller, Esq.
25 Main Street, Suite 500
Hackensack, New Jersey 07601
201-488-6655
rberns@kdvlaw.com
Of Counsel:
Brett A. Scher
Andrew A. Lipkowitz

